NATIONAL CREDIT UNION ADMINISTRATION
    OFFICE OF INSPECTOR GENERAL




         REVIEW OF NCUA’S POLICIES,
        PROCEDURES AND PRACTICES
       REGARDING FINANCIAL STABILITY
      OVERSIGHT COUNCIL INFORMATION

              Report #OIG-12-09
                June 27, 2012




             William A. DeSarno
             Inspector General


               Released by



             James W. Hagen
          Deputy Inspector General
                                   Table of Contents


 Section                                               Page


    I      EXECUTIVE SUMMARY                           1

   II      BACKGROUND                                  3

   III     OBJECTIVE, SCOPE, AND METHODOLOGY           5

   IV      OBSERVATIONS                                7

             FSOC Guidance                             7

             NCUA Policies and Procedures              7

           CIGFO Report Findings                       9

           Suggestion                                  9

APPENDIX

   A       NCUA Management Comments                    10




                                            i
Review of NCUA’s Policies, Procedures and Practices Regarding Financial Stability Oversight Council
Information
OIG-12-09



Executive Summary

The National Credit Union Administration (NCUA) Office of Inspector General (OIG)
conducted an audit of NCUA’s policies, procedures, and practices regarding Financial
Stability Oversight Council (FSOC)-related information. Our objective was to review
NCUA’s policies, procedures, and practices for ensuring FSOC-related information that
it collects, shares, or deliberates is adequately protected from unauthorized disclosure.
We conducted this audit as part of a larger audit that the Council of Inspectors General
on Financial Oversight (CIGFO) initiated. The main component of this audit was
completing a data collection instrument (DCI) provided by the CIGFO that included
agency responses and narratives to a series of Yes or No questions. We used the
following methodologies to complete the DCI and achieve our audit objective:

   •   Interviewed NCUA management and staff associated with FSOC activities;

   •   Interviewed other applicable NCUA management and staff;

   •   Reviewed NCUA Instructions, policies, procedures, and practices;

   •   Reviewed the FSOC Memorandum of Understanding and the Rules of
       Organization of the Financial Stability Oversight Council; and

   •   Reviewed Memoranda of Understanding NCUA has with other FSOC member
       agencies

While we believe NCUA has a culture of protecting sensitive information, we determined
NCUA’s existing policies and procedures are not sufficiently comprehensive to help the
agency protect confidential non-public FSOC information from unauthorized disclosure.
Specifically, NCUA needs to improve or supplement its policies and procedures to
address:

   •   Protecting oral communication of confidential non-public FSOC information;

   •   Inventorying or tracking FSOC information requests/responses;

   •   Controlling access to and authorizing release of confidential non-public
       information to FSOC, FSOC member agencies or other external parties (e.g.,
       Congress);

   •   Placing appropriate markings on FSOC information to identify it as containing
       confidential information;

   •   A central person/group to coordinate all FSOC communications;


                                                  1
Review of NCUA’s Policies, Procedures and Practices Regarding Financial Stability Oversight Council
Information
OIG-12-09

   •   Membership on FSOC committees, including authorized alternate
       representatives and corresponding duties and responsibilities of the NCUA
       representatives;

   •   Identifying, controlling and monitoring who within NCUA will have access to and
       who has accessed specific FSOC information and systems;

   •   Handling, controlling, and protecting FSOC information during teleconferences
       and telework sessions; and

   •   Consequences for the breach/unauthorized disclosure of FSOC information

We provided the completed DCI to the Federal Deposit Insurance Corporation on
April 16, 2012 as part of the larger CIGFO audit. The CIGFO indicated that the DCI
results from agency IGs will be rolled-up into a consolidated CIGFO report.

We suggested in this report that NCUA management coordinate with FSOC and FSOC
member agencies to supplement or improve its policies, procedures, and practices.
While acknowledging its existing policies and procedures are not specific to FSOC
information and could be more comprehensive, NCUA management believes its
policies, procedures, and training are effective. NCUA management agreed to continue
coordinating with FSOC to implement improved policies, procedures, and practices as
suggested by FSOC.

We appreciate the courtesies and cooperation NCUA management and staff provided to
us during this review.




                                                  2
Review of NCUA’s Policies, Procedures and Practices Regarding Financial Stability Oversight Council
Information
OIG-12-09


Background

On July 21, 2010, the President signed into law the Dodd-Frank Wall Street Reform and
Consumer Protection Act (the Financial Reform Act). The Financial Reform Act
created:

      •    The Financial Stability Oversight Council (FSOC); and

      •    The Council of Inspectors General on Financial Oversight (CIGFO)

FSOC

Prior to the financial crisis, the [financial] regulatory framework focused regulators
narrowly on individual institutions and markets. This allowed supervisory gaps to grow
and regulatory inconsistencies to emerge, which led to arbitrage and weakened
standards. No single entity had responsibility for monitoring and addressing risks to
financial stability, leaving institutions across multiple markets and important parts of the
financial system unregulated. The creation of the FSOC addresses these problems.

FSOC membership consists of 10 voting members and five non-voting members:

                        Voting Members                                      Non-Voting Members
•     Secretary of the Department of the Treasury,                     •    Director of the Office of
                  1
      Chairperson                                                           Financial Research
•     Chairman of the Board of Governors of the Federal                •    Director of the Federal
      Reserve System                                                        Insurance Office
•     Comptroller of the Currency                                      •    A state insurance
                                                                            commissioner
•     Chairman of the Securities and Exchange Commission               •    A state banking supervisor
•     Chairperson of the Commodity Futures Trading                     •    A state securities
      Commission                                                            commissioner
•     Chairperson of the Federal Deposit Insurance
      Corporation
•     Director of the Federal Housing Finance Agency
•     Chairman of the National Credit Union Administration
•     Director of the Bureau of Consumer Financial Protection
•     An independent member with insurance expertise

The purpose of the FSOC is to:

      •    Identify risks to the financial stability of the United States that may arise from
           ongoing activities of large, interconnected financial companies as well as from
           outside the financial services marketplace;



1
    The Secretary of the U.S. Department of the Treasury chairs the FSOC.

                                                          3
Review of NCUA’s Policies, Procedures and Practices Regarding Financial Stability Oversight Council
Information
OIG-12-09

   •   Promote market discipline by eliminating expectations of government bailouts;
       and

   •   Respond to emerging threats to financial stability.

The FSOC is authorized to:

   •   Facilitate Regulatory Coordination: The FSOC has a statutory duty to facilitate
       information sharing and coordination among the member agencies regarding
       domestic financial services policy development, rulemaking, examinations,
       reporting requirements, and enforcement actions. Through this role, the FSOC
       will help eliminate gaps and weaknesses within the regulatory structure, to
       promote a safer and more stable system.

   •   Facilitate Information Sharing and Collection: By statute, the FSOC has a duty to
       facilitate the sharing of data and information among the member agencies. In
       instances where the data available proves insufficient, the FSOC has the
       authority to direct the Office of Financial Research (OFR) to collect information
       from certain individual financial companies to assess risks to the financial
       system, including the extent to which a financial activity or financial market in
       which the financial company participates, or the financial company itself, poses a
       threat to the financial stability of the United States. The collection and analysis of
       this data will aid the FSOC and OFR in their shared goal of removing blind spots
       in the financial system so that regulators will be more able to see the entire
       landscape and be better equipped to identify systemic risks and other emerging
       threats.

   •   Designate Nonbank Financial Companies for Consolidated Supervision: In the
       run up to the financial crisis, some of the nonbank firms that posed the greatest
       risk to the financial system were not subject to tough consolidated supervision.
       The Financial Reform Act gives the FSOC the authority to require consolidated
       supervision of nonbank financial companies, regardless of their corporate form.

   •   Designate Systemic Financial Market Utilities and Systemic Payment, Clearing,
       or Settlement Activities: The Financial Reform Act authorizes the FSOC to
       designate financial market utilities and payment, clearing, or settlement activities
       as systemic, requiring them to meet prescribed risk management standards
       prescribed and heightened oversight by the Federal Reserve, the Securities and
       Exchange Commission, or the Commodities Futures Trading Commission.

   •   Recommend Stricter Standards: The FSOC has the authority to recommend
       stricter standards for the largest, most interconnected firms, including nonbanks,
       designated by the FSOC for Federal Reserve supervision. Moreover, where the
       FSOC determines that certain practices or activities pose a threat to financial



                                                  4
Review of NCUA’s Policies, Procedures and Practices Regarding Financial Stability Oversight Council
Information
OIG-12-09

        stability, the FSOC may make recommendations to the primary financial
        regulatory agencies for new or heightened standards.

    •   Recommend Congress close specific gaps in regulation.

CIGFO

The CIGFO was established to facilitate information sharing among its Inspectors
General (IG) members; provide a forum for discussion of IG member work as it relates
to the broader financial sector; and evaluate the effectiveness and internal operations of
the FSOC. The CIGFO includes the IGs of nine major government financial entities.
The IG of the Department of the Treasury (Treasury) is the Chairman of CIGFO, and the
IG of the Federal Deposit Insurance Corporation (FDIC) is the Vice-Chairman of
CIGFO. The other CIGFO members are the IGs of the remaining FSOC voting member
agencies identified above:

Objective, Scope and Methodology

On December 8, 2011, CIGFO members approved a proposal to convene a working
group to review FSOC’s control of sensitive and proprietary information. 2 The objective
of this audit was to examine the controls and protocols that FSOC and its member
agencies have put in place to ensure that FSOC-collected information, deliberations,
and decisions are safeguarded from unauthorized disclosure.

The CIGFO audit indicated member agency IGs should perform audit procedures to
complete a data collection instrument (DCI), comprised of a series of Yes or No
questions address the audit objective. As part of the larger CIGFO audit, we initiated an
audit to review NCUA’s policies, procedures, and practices for ensuring FSOC-related
information that it collects, shares, or deliberates is adequately protected from
unauthorized disclosure.

We were required to answer the Yes/No questions and include a narrative description of
our results and findings. We submitted our completed DCI to the FDIC on April 16,
2012. The CIGFO will roll the results from agency IGs into a consolidated report, which
will address current controls at FSOC/OFR and member agencies and plans for moving
forward. Based on the observations from our review, we chose to issue this separate
report in an effort to assist NCUA in determining how to move the agency forward in
handling and controlling confidential non-public FSOC information and protecting it from
unauthorized disclosure.

We conducted this review from February 2012 to June 2012 in accordance with
generally accepted government auditing standards applicable to the objective and
2
  Pursuant to the Financial Reform Act, the CIGFO may, by majority vote, convene a working group to evaluate the
internal operations of the FSOC. In addition, IGs who are members of CIGFO may detail staff and resources to a
CIGFO working group to enable it to carry out its duties.


                                                        5
Review of NCUA’s Policies, Procedures and Practices Regarding Financial Stability Oversight Council
Information
OIG-12-09

scope of the survey defined in the CIGFO’s February 2012 Survey Program. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective.

Consistent with the standards provided by the CIGFO, we obtained and incorporated
the views of responsible agency officials into the results of our work. We also
performed appropriate quality control procedures, such as indexing and referencing,
consistent with our internal policies and procedures to ensure the reliability of our
results.

To determine whether NCUA has policies, procedures, and practices for ensuring
FSOC-related information that it collects, shares, or deliberates is adequately protected
from unauthorized disclosure, we:

   •   Interviewed NCUA management and staff associated with FSOC activities;

   •   Interviewed other applicable NCUA management and staff;

   •   Reviewed NCUA Instructions, policies, procedures, and practices;

   •   Reviewed the FSOC Memorandum of Understanding and the Rules of
       Organization of the Financial Stability Oversight Council; and

   •   Reviewed Memoranda of Understanding NCUA has with other FSOC member
       agencies

We did not use any computer-processed data during the course of this audit.




                                                  6
Review of NCUA’s Policies, Procedures and Practices Regarding Financial Stability Oversight Council
Information
OIG-12-09

Observations

During our review, we observed that NCUA generally has a culture of protecting
sensitive information. In reviewing the responses to the DCI, we determined that FSOC
provides and NCUA has limited comprehensive policies or procedures that would help
the NCUA adequately handle and control confidential non-public FSOC information,
analyses, or information from deliberations (FSOC information) and protect that
information from unauthorized disclosure.

FSOC Guidance

We determined that while FSOC guidance 3: (1) defines confidential non-public
information; and (2) provides general overall policy that (a) all reasonable efforts must
be made to protect such information, and (b) members shall maintain and protect non-
public data/reports in a confidential manner, the FSOC guidance does not delineate any
specific procedures or methods that NCUA could use to guide it in handling, controlling,
or protecting oral, hardcopy, or electronic FSOC information received from or provided
to the FSOC or its member agencies.

NCUA Policies and Procedures

We determined that overall, NCUA’s existing policies and procedures do not address
key items as posed by the CIGFO in its DCI that if addressed, would provide NCUA with
comprehensive guidelines and controls to protect confidential FSOC information. We
identified NCUA policies that either include many controls or that could be improved to
include controls for guiding NCUA in its efforts to protect confidential FSOC information.
Specifically, we reviewed: (1) NCUA’s Rules of Behavior; and (2) NCUA’s Instruction
regarding Security of External Party's Documentation (NCUA Instruction No. 13500.09,
March 25, 2008):

    •   Rules of Behavior. NCUA’s FSOC representatives and other NCUA staff
        indicated they believe the Rules of Behavior applies in regard to providing policy
        and procedure for protecting confidential FSOC information. However, we
        determined the Rules of Behavior does not adequately or comprehensively
        address handling, controlling, or protecting confidential information. Specifically,
        it:

        o Focuses on: (a) protecting sensitive Personally Identifiable Information; and
          (b) computer/network/software security;

        o Provides only a limited definition of confidential information (i.e., "When using
          electronic share and loan data during an AIRES exam, you must treat this
          data as confidential."); and
3
  The FSOC ‘Memorandum of Understanding Regarding the Treatment of Non-Public Information Shared Among
Parties Pursuant to the Dodd-Frank Wall Street Reform and Consumer Protection Act’ (effective April 15, 2011); and
the ‘Rules of Organization of the Financial Stability Oversight Council’.

                                                         7
Review of NCUA’s Policies, Procedures and Practices Regarding Financial Stability Oversight Council
Information
OIG-12-09


       •   Does not include any policy or procedures for protecting confidential
           information – whether oral, hardcopy or electronic

   •   Security of External Party's Documentation. This Instruction includes applicable
       policies and procedures that NCUA could use in handling and controlling
       confidential FSOC information and protecting that information from unauthorized
       disclosure. Specifically, it provides policies and procedures for securing
       electronic and hardcopy materials that contain information about or are acquired
       from credit unions or any other parties external to NCUA.

Based on our review of FSOC’s guidance and NCUA’s policies and procedures, we
determined NCUA lacks guidance, or policies, and procedures to specifically address
the following items:

   •   Protecting oral communication of confidential non-public FSOC information;

   •   Inventorying or tracking FSOC information requests/responses;

   •   Controlling access to and authorizing release of confidential non-public
       information to FSOC, FSOC member agencies or other external parties (e.g.,
       Congress);

   •   Placing appropriate markings on FSOC information to identify it as containing
       confidential information;

   •   A central person/group to coordinate all FSOC communications;

   •   Membership on FSOC committees, including authorized alternate
       representatives and corresponding duties and responsibilities of the NCUA
       representatives;

   •   Identifying, controlling and monitoring who within NCUA will have access to and
       who has accessed specific FSOC information and systems;

   •   Handling, controlling, and protecting FSOC information during teleconferences
       and telework sessions; and

   •   Consequences for the breach/unauthorized disclosure of FSOC information




                                                  8
Review of NCUA’s Policies, Procedures and Practices Regarding Financial Stability Oversight Council
Information
OIG-12-09

CIGFO Report Findings

The CIGFO issued the report – Audit of the Financial Stability Oversight Council’s
Controls over Non-Public Information - on June 22, 2012. The CIGFO concluded that it
would be beneficial for the FSOC to examine differences in member agencies’ control
environments and determine whether those differences pose a risk of unauthorized
disclosure that it would need to address FSOC-wide. In addition, the CIGFO report
suggested that the FSOC might identify best practices among member agencies that
would be of benefit to the FSOC as a whole.


Suggestion

We believe NCUA should coordinate with FSOC and FSOC member agencies to
supplement or improve its policies, procedures, and practices to help ensure the agency
adequately handles and controls confidential non-public FSOC information and protects
that information from unauthorized disclosure.

Agency Response: NCUA management believes its existing policies, procedures, and
training are effective. However, NCUA management also acknowledges the policies
and procedures are not specific to FSOC information and could be more
comprehensive. NCUA management: (1) agreed to continue coordinating with FSOC to
implement improved policies, procedures, and practices as suggested by FSOC; and
(2) indicated this coordination will enhance NCUA’s existing efforts to ensure the
protection of non-public information, especially confidential, FSOC-related information.

OIG Response: The OIG concurs with NCUA’s planned action.




                                                  9
Review of NCUA’s Policies, Procedures and Practices Regarding Financial Stability Oversight Council
Information
OIG-12-09

Appendix A – NCUA Management Comments




                                                  10
